<html>
<title> - U.S. HUMANITARIAN ASSISTANCE TO SYRIA: MINIMIZING RISKS AND IMPROVING OVERSIGHT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 U.S. HUMANITARIAN ASSISTANCE TO SYRIA: MINIMIZING RISKS AND IMPROVING 
                               OVERSIGHT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-195

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3750475877544244435f525b471954585a19">[email&#160;protected]</a>  
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas Melito, Director, International Affairs and Trade, 
  Government Accountability Office...............................     6
The Honorable Ann Calvaresi Barr, Inspector General, Office of 
  the Inspector General, United States Agency for International 
  Development....................................................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thomas Melito: Prepared statement............................     8
The Honorable Ann Calvaresi Barr: Prepared statement.............    22

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45

 
                 U.S. HUMANITARIAN ASSISTANCE TO SYRIA:
                     MINIMIZING RISKS AND IMPROVING
                               OVERSIGHT

                              ----------                              


                        THURSDAY, JULY 14, 2016

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:19 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    I know that Mr. Deutch is right in the side room, so he 
will be right out. And my apologies for starting late.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses.
    And without objection, the witnesses' prepared statements 
will be made a part of the record. Apologies for keeping you 
waiting.
    And members may have 5 days to insert statements and 
questions for the record, subject to the length limitation in 
the rules.
    I would first like to thank all of the individuals and 
organizations involved in providing humanitarian assistance for 
the Syrian crisis. Working in an active conflict zone is 
incredibly dangerous but also desperately needed. So we thank 
you and we support you.
    Today's hearing is the subcommittee's fourth hearing that 
focuses specifically on the Syrian humanitarian crisis. It has 
been an issue we have been following closely since the fighting 
in Syria began over 5 years ago. And until the administration 
gets serious about developing a comprehensive plan to end the 
conflict, it will, unfortunately, be an issue we will continue 
to revisit.
    The numbers are truly staggering. By most estimates, there 
have been at least \1/4\ million Syrians killed and possibly as 
much as nearly \1/2\ million. Nearly 5 million Syrians have 
fled to neighboring countries like Turkey, Lebanon, and Jordan. 
There are nearly 7 million internally displaced Syrians and 
more than 13\1/2\ million people are in need of assistance, 
with about 5\1/2\ million people in besieged and hard-to-reach 
areas.
    We have convened this hearing today to see how we can 
maximize our efforts and limit risks when providing 
humanitarian assistance.
    In addition to the $5 billion already provided, Secretary 
Kerry announced, earlier this week, $439 million in additional 
humanitarian assistance, and the President's budget request for 
Fiscal Year 2017 seeks nearly $2.1 billion through accounts 
that addresses the humanitarian impact of this crisis.
    This is a lot to ask of the U.S. taxpayers, especially when 
we know that there is no end in sight to this terrible crisis. 
And that is why Congress must conduct oversight, to ensure that 
this assistance is being used as effectively and efficiently as 
possible. And that is why I was pleased to be joined by Ranking 
Member Deutch, Gerry Connolly, and Ron DeSantis in requesting a 
GAO review of our Syrian humanitarian assistance program.
    This report focuses solely on our programs inside Syria. 
With the U.S. no longer having a presence in the country, we 
have to rely on remote programs and coordinating with 
implementing partners. We recognize this brings challenges, but 
these challenges also make it more important for our agencies 
to mitigate all risks, because situations like these make our 
effort more vulnerable to waste, fraud, abuse, and diversion. 
And that is precisely what GAO and USAID's Inspector General 
have found, that we have weaknesses in our humanitarian aid 
programs in Syria and both State and USAID could improve their 
fraud oversight.
    GAO's review found that most of the implementing partners 
that we work with to provide humanitarian assistance into Syria 
do not assess the risk of fraud. Why is this important? Well, 
we will hear from the Inspector General that her office has 
opened 25 cases to investigate allegations of abuse of USAID 
funds with three common fraud schemes. This, obviously, raises 
concerns, not only with how USAID and State oversee our 
assistance programs, but it raises concerns regarding the 
checks and balances our implementing partners have in place as 
well.
    We rely heavily on our partners, as does the U.N., where 75 
percent of all our assistance is funneled through. And if they 
are lax in their oversight, we run the risk of wider loss due 
to waste, fraud, and abuse, and diversion.
    What GAO also found is that not only do most implementing 
partners not assess the risk of fraud, but their controls for 
mitigating the risk of fraud and loss were not informed by a 
risk assessment. So it is likely that they either don't know 
what they are looking for or are looking in the wrong place. 
And that is why GAO has recommended that USAID and State 
strengthen their fraud oversight themselves, but they must also 
require implementing partners to conduct fraud risk assessment 
and to ensure monitors are properly trained. These are common 
sense recommendations for our efforts in Syria, but they are 
also common sense for State and USAID across the board.
    We provide large sums of money and assistance every year 
and administer very large programs. We need to be doing 
everything we can to minimize the risk of waste, fraud, abuse, 
and diversion. It is also important because we do send most of 
our assistance through the U.N., and from there we have less 
oversight, less transparency. If we can work with our 
implementing partners to strengthen how they assess the risk of 
fraud and how they improve their oversight, we have a better 
chance of maximizing the humanitarian assistance response 
across the board.
    State and USAID are doing a good job with their 
humanitarian response, but we can always seek to do better. We 
all want to ensure that we are being proper stewards of 
American taxpayer dollars, but we are also promoting our core 
ideals and values as Americans by doing what we can to help 
those suffering from the ongoing crisis in Syria. So I am eager 
to hear from our witnesses on how we can accomplish both of 
these objectives without sacrificing our ability to assist 
those in dire need.
    And with that, I apologize to our ranking member for my 
lateness, and he is recognized.
    Mr. Deutch. Thank you, Madam Chairman. It was an honor to 
arrive before you----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Deutch [continuing]. Once. First time ever.
    Thanks so much for holding today's hearing, and thanks for 
your continued commitment to making sure that this committee 
keeps the humanitarian response to this herein crisis at the 
forefront of our work.
    And thank you to Congressman Connolly and Congressman 
DeSantis for joining us in requesting the GAO report to review 
our humanitarian assistance to Syria. Because of the extent of 
U.S. commitment to responding to this humanitarian crisis, this 
report is not only very timely, but it is extremely important 
for the safety and for the accountability of our aid programs.
    I also thank our witnesses for appearing here today and for 
the work that you do to ensure proper oversight of aid to the 
Syrian people who are in critical need.
    The humanitarian crisis in Syria has reached staggering 
heights. I repeat these figures at every hearing because we 
have to take a moment to just try to grasp the magnitude of the 
crisis. There are now more than 13\1/2\ million people inside 
Syria in need of immediate humanitarian assistance. 13\1/2\ 
million people of which 6\1/2\ million are internally 
displaced. These people require health care, water and 
sanitation, shelter, food, and all of them desperately need 
protection. Since the crisis began in 2011, Syria's development 
situation has regressed almost by four decades, and the life 
expectancy among Syrians has dropped more than 20 years.
    This humanitarian catastrophe is exacerbated further by the 
Assad regime, which has intentionally obstructed access to the 
Syrian people. The regime leverages food and water as a weapon 
of war. The regime's systematic denial of medical assistance, 
food supplies, and other humanitarian aid to people living in 
besieged areas is unacceptable. It is illegal under 
international law.
    There are over 5 million people in hard-to-reach areas, 
including close to 600,000 people in 18 besieged areas who are 
dying from starvation. This flagrant violation of international 
humanitarian norms must end. The number of deaths surpasses 
400,000 Syrians, and this number increases every day. These are 
not just numbers; they are human lives, and we must continue to 
think of that.
    I commend the hundreds of aid workers, NGOs, and 
implementing partners that are on the ground risking their 
lives to provide food and medical care to the Syrian people. 
They, you, are doing an exceptional job in extraordinarily 
difficult circumstances, and I don't think that you get the 
credit that you deserve.
    I am proud that the United States has stepped up to lead 
the worldwide humanitarian response effort. The U.S. has 
consistently led global funding efforts since 2013, and our 
total funding has passed $5 billion at the end of this year. 
Other donor countries must now fulfill their pledges, something 
that we say at every one of these hearings, and it continues to 
be true and urgent. Yet the scale of the need continues to 
grow.
    I understand that the humanitarian response of this size is 
not easy, especially in an operating environment that is 
particularly dangerous and hostile. Delivery of U.S. 
humanitarian assistance inside Syria is further complicated by 
a reliance on partners who can deliver cross-border aid. This 
means USAID and other international NGOs have been forced to 
oversee assistance remotely from neighboring countries, 
including Turkey and Jordan.
    USAID has relied on implementing partners to cross the 
border into Syria to deliver assistance into both government 
and opposition controlled areas. These cross-border operations 
only increase the opportunity for risks and fraud and for other 
entities and individuals to take advantage of our resources. 
This is troubling.
    When I hear about organized criminal networks infiltrating 
aid organizations or instances of bribery, bid rigging, 
delivery of products of lower quality, or even the failure of 
delivery altogether, I am concerned about where the gaps exist 
within our humanitarian assistance programs. I am concerned 
whether these programs have adequately assessed the risks and 
provided the necessary oversight of the programs and their 
partners. Our aid agency and partners need to be prepared for 
potential risk and fraud, especially in a context like this. 
They need to consistently review and verify that they are 
meeting financial obligations and holding the highest standards 
for aid products and partners.
    The GAO found that although USAID had guidelines for 
verifying the progress of activities in Syria, they did not 
include clear instructions to identify and recognize potential 
fraud risks. Moreover, field monitors did not receive fraud 
awareness training.
    When internal controls monitoring and financial oversight 
plans fail, it puts taxpayer dollars at risk. But more 
importantly, it delays the critical and crucial assistance to 
those who are depending on this aid. It diverts resources from 
those who need it most. We need to keep our agencies and 
partners accountable. The Syrian people deserve that, and I am 
pleased to see that USAID has concurred and is in the process 
of implementing all of the GAO recommendations. I am also 
pleased that USAID has increased its own third-party monitoring 
of programs.
    It is a war zone out there. We understand there will be 
unforeseen circumstances and challenges. There will, 
unfortunately, always be situations where individuals will 
attempt to take advantage of the chaos. Despite all these 
challenges, we need to have that confidence that the agencies 
are doing all they possibly can to mitigate fraud and 
mismanagement of our resources. We need to have the confidence 
that the agencies have made all the necessary risk assessments 
and are continually monitoring and updating procedures to close 
the gaps and vulnerabilities.
    I applaud USAID for working so quickly to address these 
gaps, and I am hopeful that the measures that the USAID has put 
in place as a result of both the GAO and OIG's work will give 
us that confidence. All of that is to say, while there are many 
obstacles to assisting Syrians, we are helping millions and we 
are saving many, many lives. Americans can be proud that we are 
the largest donor country to the Syrian crisis, that we have 
the largest donor worldwide to humanitarian assistance. We are 
committed to living up to our values and to meeting the needs 
of the millions in crisis.
    I look to our witnesses today to help us better understand 
the situation on the ground and to their recommendations.
    And, Madam Chairman, before I yield back, I would take just 
a moment of personal privilege, if I may. Julie Ahn, who is 
sitting behind me, is a Rangel Fellow from the State 
Department, who is completing her internship with us before she 
heads off to the Kennedy School in the fall. She will then be 
entering the foreign service to pursue the good work that our 
foreign service officers do all around the world.
    Ms. Ros-Lehtinen. Yeah. Two lovely years in Kurdistan.
    Mr. Deutch. So I thank you very much and I appreciate your 
giving me that opportunity.
    I yield back.
    Ms. Ros-Lehtinen. Thank you.
    So safe speed and may all go well.
    And now, I would like to turn for any opening statements 
that they would like to make to Randy Weber of Texas and then 
to be followed by Ron DeSantis of Florida.
    Mr. Weber. I am good and I am ready to go. Thank you.
    Ms. Ros-Lehtinen. Texans are always ready.
    Ron?
    Mr. DeSantis. Let's get this show on the road.
    Ms. Ros-Lehtinen. Let's do it.
    Well, thank you. And I know Lee Zeldin is there on the 
side, and if he comes back, we will recognize him.
    But the subcommittee is delighted to welcome back Dr. 
Thomas Melito, who serves as the director of the International 
Affairs and Trade team at the Government Accountability Office, 
GAO. In this capacity, Dr. Melito is primarily responsible for 
GAO's multilateral assistance portfolio as well as other areas 
of important oversight.
    So welcome back.
    And next, we would like to welcome to our subcommittee for 
the first time, but we know that it is going to be a repeated 
engagement, Ms. Ann Calvaresi Barr, who serves as the Inspector 
General for the United States Agency of International 
Development, USAID. In this capacity, she leads the USAID 
Office of Inspector General exercising broad oversight 
authority over programs and operations of USAID, as well as the 
Millennium Challenge Corporation, the U.S. African Development 
Foundation, the Inter-American Foundation, and the Overseas 
Private Investment Corporation. They sure keep you busy.
    So it is my understanding that the two of you came through 
GAO at the same time, so this is a very public reunion of 
sorts. We welcome you. Welcome, both of you.
    And we will start with Dr. Melito.

STATEMENT OF MR. THOMAS MELITO, DIRECTOR, INTERNATIONAL AFFAIRS 
          AND TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Melito. Madam Chairman, Ranking Member Deutch, and 
members of the subcommittee, I am pleased to be here to discuss 
the work you requested on delivery of U.S. humanitarian 
assistance----
    Ms. Ros-Lehtinen. If you could bring that microphone a 
little bit closer.
    Mr. Melito. I am pleased to be here to discuss the work you 
requested on delivery of U.S. humanitarian assistance to people 
inside Syria. The conflict in Syria has created a complex 
humanitarian challenge. As of May 2016, the U.N. reported that 
13\1/2\ million people inside Syria have been affected by the 
conflict and are in need of humanitarian assistance such as 
food, shelter, and medicine.
    Since the start of the conflict in March 2011, the United 
States, through the Department of State and USAID, has provided 
over $5 billion in humanitarian assistance, about half of which 
has been provided for assistance to people inside Syria. In 
2015, the U.S. provided more than a quarter of the total 
international funding for the humanitarian response to Syria.
    My testimony summarizes our report on the delivery of U.S. 
humanitarian assistance to people inside Syria, which is being 
released today. I will focus on four topics. First, factors 
affecting delivery of assistance. Second, the extent to which 
State, USAID, and their partners have assessed risks to their 
program. Third, implementation of controls to mitigate 
identifying risks and ensure appropriate financial oversight of 
humanitarian assistance projects. And fourth, GAO's 
recommendations and the agency responses.
    Regarding the first topic, several factors complicate the 
delivery of humanitarian assistance to people inside Syria. For 
example, the increasingly violent and widespread Syrian 
conflict has hindered effective delivery of humanitarian 
assistance. In addition, administrative procedures put in place 
by the Syrian Government have delayed or limited the delivery 
of humanitarian assistance, especially to besieged areas. 
Further, due to restrictions for traveling to Syria, State and 
USAID staff must manage the delivery of humanitarian assistance 
remotely from neighboring countries.
    Regarding the second topic on risk assessments, U.S. 
agencies do not require comprehensive risk assessments from 
implementing partners, and most partners have not assessed the 
risk of fraud. Risk assessment involves comprehensively 
identifying risks associated with achieving program objectives 
and determining actions to mitigate those risks. In the context 
of Syria, such risks include theft, fraud, and safety and 
security.
    Most of the implementing partners we examined conducted 
formal risk assessments for at least one type of risk, most 
commonly security risk. In addition, several maintain 
assessments on a variety of risks that are updated on a regular 
basis. However, few of these implementing partners conducted 
risk assessments for the risk of fraud, despite elevated risks 
for fraud in assistance projects inside Syria. These risks have 
been highlighted through the ongoing and closed fraud 
investigations by USAID's Inspector General.
    Absent assessments of fraud risk, implementing partners may 
not have all the information needed to design appropriate 
controls to mitigate such risk. In addition, State and USAID 
officials may not have sufficient awareness of the risk of 
fraud or loss due to theft.
    Regarding the third topic on oversight, partners have 
implemented controls to mitigate some of the risks of 
delivering humanitarian assistance inside Syria, but U.S. 
agencies could improve their oversight of these programs. We 
found that partners we examined had implemented controls to 
mitigate certain risks of delivering humanitarian assistance 
inside Syria. For example, many partners implemented controls 
to account for safety and security risks to their personnel and 
beneficiaries receiving assistance. However, we found that 
fraud oversight could be strengthened.
    While USAID has hired a contractor for verifying the 
progress of activities in Syria, they have not clearly 
instructed field monitors on how to identify and collect 
information on potential fraud risks. Further, the contractors 
have not received fraud awareness training.
    Regarding the fourth topic, GAO made several 
recommendations in our report. To provide more complete 
information to assist the agencies in conducting oversight 
activities, State and USAID should require the implementing 
partners to conduct fraud risk assessments. In addition, USAID 
should ensure its field monitors are trained to identify 
potential fraud risks and collect information on them. Both 
agencies agreed with GAO's recommendations.
    Madam Chairman, Ranking Member Deutch, and members of the 
subcommittee, this completes my prepared statement. I will be 
pleased to respond to any questions you may have at this time.
    [The prepared statement of Mr. Melito follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Calvaresi.

   STATEMENT OF THE HONORABLE ANN CALVARESI BARR, INSPECTOR 
GENERAL, OFFICE OF THE INSPECTOR GENERAL, UNITED STATES AGENCY 
                 FOR INTERNATIONAL DEVELOPMENT

    Ms. Calvaresi Barr. Madam Chairman, Ranking Member Deutch, 
and members of the subcommittee, thank you for inviting me to 
discuss USAID's efforts to provide humanitarian assistance to 
the more than 13 million in Syria affected by the crisis there. 
The billions of dollars USAID has invested not only provide 
relief to those impacted, it strengthens our standing in the 
world. Yet despite our goodwill, bad characters have taken 
advantage of the complex situation for personal gain, 
ultimately denying Syrian people the food, clothing, health 
care, and other aid they urgently need.
    Today, I will summarize the actions our special agents and 
investigators have taken to uncover and stop fraud. I will also 
highlight several program management concerns exposed by these 
investigations.
    When the U.S. designated the response to Syria as a 
contingency operation, we ramped up our oversight in the 
region. OIG investigators briefed hundreds of USAID and 
implementer staff on fraud indicators and developed a 
comprehensive handbook for how to identify and report fraud. 
They also stood up the Syria Investigations Working Group to 
share information with other U.S. and international oversight 
organizations about ongoing investigative issues.
    To date, we have received 116 complaints of alleged abuse 
and have opened 25 investigations. Some complaints relate to 
terrorist diversions, but the majority, roughly two-thirds, 
relate to theft and fraud schemes, such as collusion, product 
substitution, and false claims. For example, vendors paid 
bribes or kickbacks to implementer staff in exchange for 
competitive bidding data or manipulation of bid evaluations.
    One of our product substitution cases involved a Turkish 
vendor that placed more salt and less lentils in food kits to 
increase their profits. We also found nonfood kits in a 
warehouse in Syria that were missing items or included 
substandard products, such as poor quality frying pans that can 
easily be bent and folded and tarps that were too small to 
shelter an adult. In one false claims case, a Jordanian NGO 
fabricated documentation that it distributed nonfood items to 
communities in southern Syria when, in fact, the goods were 
distributed by another organization at its own expense.
    To date, we have made seven referrals to USAID regarding 
nine implementers. These referrals prompted USAID actions 
ranging from employee and program suspensions and terminations 
to now placing specific conditions on implementer awards and 
agreements. Our investigative outcomes have resulted in $11.5 
million in savings and six programmatic suspensions of awards 
valued at $305 million. This represents about a third of the 
money USAID disbursed in Fiscal Years 2015 and 2016. This 
demonstrates the impact our work has had and the proactive 
measures taken to further prevent losses.
    Our investigative cases not only stopped fraud, but also 
raised a number of concerns about implementer procurement 
practices and internal controls for managing projects as well 
as USAID's oversight.
    First, we question whether implementers' procurement 
policies and internal controls are appropriate for the high-
risk environment. In an effort to expedite procurements, 
implementers used an emergency waiver to bypass established 
procurement policies and procedures, including full and open 
competition. While the use of these waivers is allowable when 
the needs are urgent, they were used for an extended period of 
time and were not accompanied by enhanced monitoring. Internal 
control concerns relate to implementers' quality control 
procedures such as allowing vendors to ship materials across 
the border without the items being inspected and accepting 
substandard items. In addition, some implementers did not 
pursue allegations, overlooked evidence of wrongdoing, or did 
not notify USAID or OIG of internal investigations.
    Finally, our cases point to potential gaps in USAID 
oversight of implementers. For example, OFDA generally did not 
require implementers to obtain prior agency approval of large 
subcontracts or set requirements to inspect them. Further, DART 
teams responsible for coordinating and managing response 
efforts did not include permanent subject-matter experts to 
evaluate procured items.
    While we are encouraged by the steps USAID has taken and 
plans to take in response to the vulnerabilities we identified, 
continued vigilance and a better understanding of program 
deficiencies is required. To that end, my office, along with 
our partners at DOD and State, remain committed to aggressively 
cracking down on fraud, waste, and abuse. Concurrently, my 
office plans to advance audit work aimed at identifying 
systemic weaknesses and additional actions USAID can take to 
eliminating vulnerabilities before they can be further 
exploited.
    Providing aid in conflict settings presents significant 
challenges and frequently calls for flexible practices. 
However, as our investigators demonstrate and their work, 
flexibility cannot eclipse rigor.
    Madam Chairman, Ranking Member Deutch, this concludes my 
prepared statement. I would be happy to take any questions that 
you may have.
    [The prepared statement of Ms. Calvaresi Barr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. Thank you very much.
    Really, thank you both for your testimony. There is 
certainly a lot to think about there, and I want to make sure 
that we thank you both and your teams for all the work they 
have done on this issue, for continuing to seek ways to help 
our agencies improve our oversight and the implementation of 
our assistance programs.
    And, Dr. Melito, I will start some questions with you, if I 
might.
    Tell us about why it is important for individuals and 
organizations operating in Syria to conduct a risk assessment? 
And if you could tell us how the U.N. internal control 
framework compares to ours. What are the--how do the 
requirements differ?
    Mr. Melito. Very good. A risk assessment is a jargony 
phrase that is pretty obvious. It is management, basically, 
trying to understand the challenges that their employees are 
having in the field. In this case, it is generally a 
procurement and logistics exercise where they need to 
understand which particular place they are using for buying 
things, storing things, moving things. And in the environment 
of Syria, there are a lot of complicating factors and a lot of 
heavy risks.
    So risk assessment would really be a diagnostic on looking 
at what exactly is the situation on the ground, what are they 
facing, and then recognizing that some of this is very risky 
and then mitigating that by trying to make sure that there are 
oversight controls and just a good situational awareness on the 
part of management. That is why risk assessments are essential.
    In terms of the internal control framework of the U.N., it 
is very similar. They are using international auditing 
standards which mirror, in a lot of ways, the ones that the 
U.S. Government uses. So when we have dialogues with them, we 
are pretty much on the same page. They are required to do risk 
assessments like the U.S. Government is. So there was no 
mismatch in discussions with them. They have the same 
requirements in that area.
    Ms. Ros-Lehtinen. Well, thank you. And all programs, and 
just about anything we do, are going to have at least some loss 
as a result of waste, fraud, abuse, diversion. It is sad to 
say, but it is reality based. Did either State or USAID provide 
you with a number on how much they believe is being lost to 
waste, fraud, abuse, or diversion? And do you get a sense from 
the agencies that they expect a certain amount to be lost as 
the cost of doing business in that they may have a formal or 
informal percentage they believe is acceptable?
    Mr. Melito. So GAO's perspective on this, and this is the 
auditing community as well, is that you need reasonable 
assurance. Now, reasonable assurance is something which has to 
be sort of understood at the corporate level, and they need to 
really think about where their particular tolerance is. But we 
are not talking about absolute assurance. I just want to drive 
that home. Because absolute assurance would be too expensive 
and it probably would prevent the humanitarian mission from 
going forward.
    In terms of the magnitude of the losses, I do not think 
USAID or State have really any inkling on that. I don't think 
they have done the work to address that, nor have they thought 
about what is their risk tolerance. So I think that is a 
dialogue that they need to have moving forward.
    Ms. Ros-Lehtinen. Thank you.
    And, Inspector General, I know you can't really go into 
details about the individuals and the entities, because in a 
lot of these cases, we are discussing ongoing investigations. 
But I did want to ask you a few questions about how that works 
when USAID says, okay, this implementing partner or this 
program is problematic, we need to cut ties. Because the vast 
majority of our assistance to--for Syria, for the humanitarian 
crisis, does go through the U.N., and obviously, there will be 
some overlap on the implementing partners and partner 
organizations. So when USAID suspends these individuals, these 
entities, these programs, they are no longer eligible to 
receive any U.S. Government awards, correct?
    Ms. Calvaresi Barr. Yes, for a period of time.
    Ms. Ros-Lehtinen. And do we share this information with the 
U.N. or other organizations and implementing partners? And if 
so, what actions do they take or what actions do we expect them 
to take?
    Ms. Calvaresi Barr. Let me make a few comments with regard 
to your question. First of all, I am very proud of the work 
that our office of special agents and investigations have done 
in this crisis.
    When the overseas contingency operation was activated in 
2014, proactive efforts went into the region, identified all of 
the implementers that were in that region, conducted 32 fraud 
awareness briefings with, you know, over 400 individuals, 
including USAID, DART teams, implementers, public international 
organizations. From that, these allegations have come forward, 
we opened cases and we found fraud.
    USAID's response to that has been very, very promising. And 
what I will say to that is that we have ongoing communications 
with the various bureaus affected by this, whether it be OFDA, 
whether it be Food for Peace, regarding what we found. And they 
have taken actions in terms of suspensions, debarments, special 
conditions put on awards, employee terminations, and they have 
done so oftentimes without having a full record of our 
investigation.
    And just to make a point of that, it is very difficult to 
sit down with organizations or with employees and say, you are 
being suspended, or you are being terminated, without the full 
underpinnings of an investigation. So this speaks to what USAID 
proper has done in response to that, and they have taken 
approximately 35 actions as a result of our work.
    With regard to the U.N.--with regard to the U.N., what 
happens is--and as you noted in your statement, so much of the 
money flows through U.N. organizations, these, you know, PIOs, 
as we refer to them. It is absolutely important, because we do 
not have independent oversight of those operations, that 
information is shared.
    Our office of investigations put together--and I know you 
asked me about this when we met the other day, and I am proud 
of it, so if I may hold it up for all of you--a fraud 
prevention and compliance handbook just for the region that 
goes out to everyone. This includes our U.N. counterparts. It 
includes all of the NGOs. It tells them what to look for. Our 
Syria Investigations Work Group, which we stood up, is a venue 
to actually brief the U.N.--our U.N. partners with its World 
Food Programme, on the fraud we are seeing. We share vendors 
lists where we have had issues, and we put, I would say, not 
only them on notice but pressure to say, you are likely working 
with the same implementers, now here, have at it. So you get 
the pressure points applied from a number of different 
perspectives, and I just wanted to take that moment because I 
am very, very proud of our----
    Ms. Ros-Lehtinen. I am glad that you did. Because I can 
foresee an instance where maybe these guys are defrauding the 
U.N. or other implementing partners as well or perhaps even the 
U.N. continues to work with them after we provide these 
agencies with our information.
    And just to finish up with the U.N., perhaps I will ask 
this of both of you, how does working through the impact, the 
U.N. impact our ability to exercise the kind of oversight that 
we would require if we were working with implementing partners 
directly in terms of things like transparency and 
accountability? How does that change?
    Mr. Melito. So we do have audit authority over the 
implementing parties. We do not have audit authority over the 
U.N. That said----
    Ms. Ros-Lehtinen. Could you say that again?
    Mr. Melito. So--here we go. I said we do have audit 
authority over implementing partners, but we do not have audit 
authority over U.N. agencies. That said, I have done, over the 
last 10 years, a series of reports involving U.N. agencies 
where I have generally gotten excellent cooperation. And I 
think that is in recognition of how important the U.S. is as a 
donor, and I think they would want to cooperate with the U.S. 
Government. So I can't point out a case where I wasn't 
ultimately able to get the information that GAO needed to do 
its work. So while it is an indirect process, ultimately, I 
think it's been a successful process.
    Ms. Calvaresi Barr. I would just add to that, again, to 
underscore our Syrian Investigations Working Group. We also 
have reached out sort of on a one-to-one basis. I just recently 
met with the World Food Programme Inspector General. I know 
that he was in town working with folks in the bureau as well, 
and the pressure is really being applied saying, you are going 
to be working with these same implementers, with these same 
vendors. We are relying on you to provide this aid.
    And I think it is also important to point out the very 
important role that the U.N. plays. They provide these bulk 
items in terms of humanitarian assistance into the region. They 
can have staff in Syria. You know, we need them. They provide a 
huge role and help us achieve this mission.
    We just need to stay on top of them, make sure that the 
right oversight, the monitoring, the internal controls are 
established, and that USAID puts some pressure on them to do 
it.
    I will tell you, you can be assured, we will be on it.
    Ms. Ros-Lehtinen. I understand that.
    Congratulations to both of you for the great work that you 
do. It is important to carry that message to the U.S. taxpayer. 
Thank you.
    And with that, my good friend, the ranking member, Mr. 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman. And I also want to 
express my personal gratitude and our committee's--
subcommittee's gratitude for the work you have done here. I 
think it is really important.
    Ms. Barr, I would like to pick up where the chairman left 
off, on what happens when there is a suspension for fraud 
activities?
    I would tell my friend, if he would like to wait, I will 
sit in as the chair. It is not something that I get to do. I am 
just kidding.
    Ms. Ros-Lehtinen. No problem.
    Mr. Weber. Will the gentleman yield the rest of his time?
    Mr. Deutch. If I get to be chairman, I will.
    When there is a program that is suspended, there is a 
quick--how quickly can we move to find a partner to pick up 
whatever support that program was providing, and how do we 
ensure that, for all of the really necessary oversight efforts 
that you both have been so deeply engaged in, that we don't 
wind up with serious gaps in providing the lifesaving services 
that are so important?
    Ms. Calvaresi Barr. I can tell you that USAID works very, 
very promptly to try to identify other implementers that we--
the aids--that the aid can resume to get to those in need, and 
they work very heartily and swiftly at that. There sometimes is 
a delay. I am not going to say there isn't a gap in that aid 
going out, because it certainly does happen, but these 
companies needed to be suspended. As our results show, you 
know, we have six suspensions currently out in place, and those 
are six program suspensions that fall under some major, major 
implementers.
    The best thing that we can do, and I think it is in line 
with Tom's statement and the work of GAO overall. USAID's role 
is really to establish a baseline set of internal controls, 
procurement practices that they are going to require for any 
implementer, regardless of who they are. You know how many are 
out there. The range of their--the rigor and their controls is 
going to be vast. There should be a baseline standard set for 
what those internal controls should be, what those good 
procurement practices should be, and those should be monitored 
from USAID.
    And given that we don't have the oversight authority with 
the U.N., you know, establishing those expectations, setting 
them, making that a condition of the money flowing to those in 
need is--it sounds quite simple, but it hasn't been uniformly 
applied. And I think it speaks to the recommendations that the 
GAO report made and certainly to the observations that are 
coming out of the outcomes we have found.
    Mr. Deutch. I appreciate that. It is a really good 
suggestion.
    Dr. Melito, I wanted to acknowledge, I think, what we have 
all already been discussing. In the conflict zone like Syria, 
we can't have U.S. personnel on the ground. So we rely on 
remote monitoring and management.
    The report discusses many of the challenges of remote 
management, but if you could just elaborate on these 
challenges, and in this particular environment, why it is 
different in terms of what agencies and implementers have dealt 
with previously. Why is it such a concern for oversight in 
particular?
    Mr. Melito. So as you mentioned, U.S. Government officials 
cannot enter----
    Mr. Deutch. Yes.
    Mr. Melito [continuing]. Syria. So for a normal 
humanitarian assistance effort, you would expect on-the-ground 
monitoring by U.S. Government officials. They would be looking 
at the warehouses, they would be watching the beneficiaries 
receive their assistance, making sure it is up to the quality 
and quantity that we paid for.
    In this case, the information they have to rely on is 
coming from people who are inside the country telling them 
subsequently what has happened. That is indirect. Now, they 
trust a number of these parties correctly, but it is still, 
though, something which is indirect for them.
    So what they do, they end up trying to triangulate, trying 
to get information from multiple sources. They are trying to 
use some new technologies such as geotagging pictures of 
things, and that is all very good, but it will never be as 
effective as being able to see it yourself. So that in itself 
means the risk of fraud and diversion is greater. Because of 
the indirectness of the monitoring, you are in a situation and 
environment which heightens the risks, and that needs to be 
recognized and addressed.
    Mr. Deutch. And can you, just in the remaining time that I 
have, can you try to put a face on this? When--we are obviously 
concerned. We are grateful for the report, and we are concerned 
about instances of bribery and bid rigging and failure to 
provide the material that had been committed to or contracted 
to provide.
    But what does that actually mean for the people who were to 
have been on the receiving end? And it is--we know what the 
impact is on our taxpayers, and that is why this is so 
important, but just how awful is it to the people on the ground 
who are in such desperate need?
    Mr. Melito. So in your statement and in the chairman's 
statement, talk about the magnitude of it, 13\1/2\ million 
people inside the country. The U.S. Government estimates it is 
reaching about 4 million. So that is--the U.S. Government is 
doing great. It is the single largest donor, but it is only 
reaching a subset. Any diversion from that is even lower than 
that.
    So from our perspective, this is literally taking food out 
of the mouths of babies. I mean, it is taking resources that 
are in desperate need and not putting it where it needs to be 
and, instead, in hands of people who you are not designating as 
a target. So it has a direct humanitarian impact. It is not 
just that this is a bad deed that we--you don't have them for 
criminal reasons. It is hurting the humanitarian mission, and 
that needs to be kept front and center.
    Mr. Deutch. I am--I appreciate that.
    And just, Ms. Barr, I would say to you, again, as grateful 
as we are for the focus on the impact, dollars are one thing 
and they are important. And as watchdogs, it is important that 
you focus on that. But the work that you do is so terribly 
important, because the proposals that you made, if they are 
followed, will mean not only that taxpayers can be satisfied 
that their tax dollars are being used the way they are supposed 
to, but that those tax dollars are actually being used to save 
lives. And we are grateful for that.
    I yield back. Thanks, Mr. Chairman.
    Mr. Weber [presiding]. Mr. DeSantis, if you are ready, if 
you are in a hurry, I will yield to you for 5 minutes.
    Mr. DeSantis. Well, thank you, Mr. Chairman.
    And thanks to the witnesses.
    So, obviously, we appreciate you looking into this. We know 
there is going to be a certain amount of waste, fraud, and 
abuse, unfortunately, when you have operations going on in this 
area. But did you get the approximate numbers on how much U.S. 
assistance inside Syria may have been lost due to waste or 
fraud?
    Mr. Melito. GAO does not have a number. That would be the 
kind of number that AID would need to produce itself. I would 
defer to my colleague if she has any information.
    Ms. Calvaresi Barr. What I can tell you is what we reported 
and what we know, is $1.3 million in losses. And those would be 
losses that are due to fires, bombings, parachutes not opening 
when pilots drop, but they also refer to diversions to other 
terrorist organizations.
    Mr. DeSantis. What about fraud?
    Ms. Calvaresi Barr. And with regard to fraud, sometimes 
things, they are stolen, but in terms of fraud, it is hard to 
quantify the total dollar on fraud.
    Mr. DeSantis. I think you have to view it differently. I 
mean, if you are in a hot zone and you have aid that is 
intercepted by terrorists, that is much different than if the 
money is just being frittered away. And so I think it is 
important for us to know the distinctions on there.
    Let me ask you this, Mr. Melito. There have been a number 
of attacks on medical facilities and humanitarian workers in 
Syria. Did either USAID or State provide a list of all 
instances in which one of the belligerents in Syria attacked 
any of our partners delivering aid or seized any of our 
assistance?
    Mr. Melito. So in our report, we talk about some U.N. 
information on that. So U.N. reports about 89 humanitarian 
workers have been killed since the conflict has started, and 
there have been hundreds of attacks on medical facilities and 
also attacks on food deliveries and such. And then the U.S. in 
my report, we also talk about when the city of Palmyra fell, 
food that was stored there fell into the hands of ISIS.
    Mr. DeSantis. So do you have an estimate on the numbers and 
the costs in terms of the assistance that has been implicated 
by any of those? I guess State didn't give you any information?
    Mr. Melito. We are unaware of either agency doing a 
comprehensive assessment of that.
    Mr. DeSantis. Okay. There are U.N. Security Council 
resolutions in place for accessing movement for humanitarian 
assistance inside Syria, but from your report, it seems that 
Assad's regime may be in violation of these resolutions. So how 
many requests do you know has the regime denied since the 
beginning of 2015?
    Mr. Melito. The U.N.'s reporting that they are only 
receiving about--approvals about 20 percent of the time. I 
think the number that we report is 110 requests and 13 
approvals. So in--what is going on there, it pays to talk a 
little bit about it.
    So when the U.N. wishes to go outside of these Assad-
controlled areas, to the areas outside of our control, they 
need permission for what the items are; they need permission to 
travel on the roads; they need permission to cross checkpoints; 
they need visas for employees to come in, and they have not 
been getting the approvals 90 percent of the time. And when 
they do get it, they say that it is very slow and uncertain.
    Mr. DeSantis. So even if they are not actually denying it, 
they are basically undermining it with the process. And so how 
have State and USAID responded to those limitations?
    Mr. Melito. Well, the U.S. is part of the international 
community's effort to broaden the delivery of services. So 
there was two Security Council resolutions that passed in 2014 
and 2015, which made it legal for delivery of services across 
the border. And that is what most of the international NGOs are 
doing. They are delivering assistance from Turkey and Jordan 
mostly, and that is against the wishes of the regime. So there, 
they are saying that the humanitarian assistance is more 
important than the wishes of the regime.
    This that we are referring to as denials is areas that are 
still within the control of the regime or at the border of the 
control of the regime. So it is two different ways of 
delivering services.
    Mr. DeSantis. The agencies that concurred with your 
recommendations, how long do they have to implement these and 
for you to close the recommendations?
    Mr. Melito. GAO tracks its recommendations for 4 years. But 
generally, agencies respond within 1 or 2 years. And given the 
importance of this issue, I am hopeful they will do it quickly.
    Mr. DeSantis. Well, I thank you. I thank the witnesses.
    And I yield back.
    Mr. Weber. I thank the gentleman.
    The gentlelady from Florida is recognized.
    Ms. Frankel. Thank you, Mr. Chair.
    Thanks to the witnesses.
    I want to start by saying that I think most of us agree 
that what is going on in Syria is one of the greatest 
humanitarian tragedies of our lifetime since World War II. And 
there is no question that we have to do whatever is reasonably 
possible to be part of efforts to relieve some of the 
suffering, the starvation, the homelessness. And because we are 
going to lose a generation of people, of young people who are 
not getting health care or getting education. So I want to say 
that I appreciate your efforts to try to make sure that it is 
done right.
    My first question is, in your review of these--of the 
programs, can you tell us, are any programs doing better than 
others? And what is it that--where things are working, what 
makes it different?
    Ms. Calvaresi Barr. I think it goes back to what we said in 
terms of what is missing. And what is missing is when there 
aren't clear expectations regarding what should be internal 
control processes and good procurement practices that need to 
be in place, given the fact that you are in these highly 
unstable and stable environments, the fact that it is remote 
monitoring and remote oversight. Those kinds of things call for 
special conditions, and I think it is incumbent upon USAID--it 
all starts with them, setting those baselines of standards, 
holding its implementers, NGOs to that standard, the U.N. 
organizations to that standard, and make sure that the 
reporting does come back. There has to be that basic minimum 
set of circumstances and requirements put in place, and 
currently, that is missing.
    Ms. Frankel. In your review, were you able to determine 
where aid is actually getting through to? Because I know there 
is--you have regime-held areas and you have ISIL-held areas and 
then you have, I guess, other areas.
    Mr. Melito. So the U.S. agencies, both State and AID, pay 
very close attention to the map, basically. And it divides up, 
generally, to areas that are controlled by the Assad regime and 
the areas right near that, which includes a lot of the seized 
areas and hard-to-reach areas. And the other part is the areas 
near the borders of Turkey and Jordan.
    They have different implementing partners for those two, so 
the U.N. is able to operate within the Assad-controlled areas 
of the country. The international NGOs cannot operate there, 
but they can operate across border. And in all those cases, 
State and AID pay very close attention to groups which are not 
permitted to receive assistance. And we've got very good 
assurance that there is no assistance going currently to ISIS-
controlled areas.
    That all said, it is a very fluid situation on the ground 
and a very complicated situation on the ground that has to be 
constantly monitored, but those are the kinds of things that 
the agencies are balancing.
    Ms. Frankel. So is aid going to the Assad-controlled areas?
    Mr. Melito. Yes. The U.N. is--there are a number of 
individuals in the Assad-controlled areas which are in 
desperate need. So the U.N. is providing assistance there, but 
it also is deploying out of those areas into the besieged and 
hard-to-reach areas. That said, it is not reaching nearly as 
many of those people as it wishes to. That is the reference to 
being denied access by the regime.
    Ms. Frankel. So Assad is not--which countries are being 
used, which borders, to get the assistance across?
    Mr. Melito. So it is predominantly Turkey in the north and 
Jordan in the south. Those are the two main.
    Ms. Frankel. And how cooperative have their governments 
been and their military that is on the border?
    Mr. Melito. That is probably appropriate for both the State 
and AID, but my understanding is they have been getting good 
cooperation.
    Ms. Frankel. That they have been given good cooperation. 
All right.
    I have nothing further. Thank you.
    I yield back.
    Mr. Weber. All right. Thank you.
    I am sorry, Dr. Melito, did you just say that the Turkey 
and the Jordan military have not been very cooperative?
    Mr. Melito. I said have been cooperative.
    Mr. Weber. They have been cooperative.
    Mr. Melito. That is also a question for USAID.
    Mr. Weber. Okay. I don't think your button is on.
    Mr. Melito. Yes. Have been. Sorry.
    Mr. Weber. Have been. Okay.
    Mr. Melito. I want to be clear on that.
    Mr. Weber. All right. Very good.
    A lot of questions. Is it Calvaresi Barr?
    Ms. Calvaresi Barr. Calvaresi Barr.
    Mr. Weber. Calvaresi Barr?
    Ms. Calvaresi Barr. Calvaresi Barr.
    Mr. Weber. Calvaresi Barr. Okay.
    Ms. Calvaresi Barr. Very good.
    Mr. Weber. I can do this.
    You said earlier, I think, that there were nine partners 
that had been either used or identified as bad players. Refresh 
my memory on that.
    Ms. Calvaresi Barr. We have seven referrals that we have 
given to USAID, and they involve nine implementers.
    Mr. Weber. Implementers.
    Ms. Calvaresi Barr. Implementers, right. And the program 
suspensions that we have in place are six. And, again, I just 
want to underscore, this isn't a wholesale suspension of the 
implementers at large. These are programs within these 
implementer----
    Mr. Weber. In what period of time? Is that the last year?
    Ms. Calvaresi Barr. This is data pretty much coming from 
2014 through the present.
    Mr. Weber. So the last not quite 2----
    Ms. Calvaresi Barr. Since the overseas contingency 
operation.
    Mr. Weber. I got you. And when aid is delivered, do you 
have evidence that it was delivered?
    Ms. Calvaresi Barr. So I think part of the challenge 
definitely lies in that. And I think we are calling for 
recommendations along the lines of the types of reporting back 
you might require under some of these basic standards that you 
set.
    Could it be a phone call? Could it be a printed receipt? 
Are there ways to put more branding or tags or labeling on the 
food, on the nonfood items to come back? But because we are in 
this kind of remote business and we are reliant on others, we 
have to come up with creative mechanisms to determine that, in 
fact, that aid did reach those it was intended for. Currently, 
again, that is a mixed bag, but I think if there are reporting 
standards and other kind of baselines to establish it, it could 
help.
    Mr. Weber. Well, they can put chips in animals, right, that 
can be tracked? So if you put one on just every 50th, you know, 
item or so?
    Ms. Calvaresi Barr. Yes.
    Mr. Weber. Has that been looked at?
    Ms. Calvaresi Barr. It is something that, I think, is under 
consideration, talking about a whole range of options. But it 
all starts with even checking at the warehouses before it 
crosses the border, whether it be in Turkey, in Jordan. You 
know, it starts there, and then what happens in transit, 
because, again, this is remote monitoring. This is remote 
oversight.
    Mr. Weber. So if you lose an implementer, do you have a 
ready supply of people lined up on the list that are applying 
to be implementers?
    Ms. Calvaresi Barr. I represent the oversight community, so 
not being the USAID proper or others to know exactly what their 
full list of contingents are, I know that for the aid going 
into Syria, they are working with approximately 29 implementers 
now. But oftentimes, when these situations occur, folks go into 
the region very, very quickly in order to deliver the aid, to 
deliver the assistance, and that--you know, that creates some 
vulnerabilities in and of itself. They are new to it. We are 
relying on them. It creates a perfect storm for what our 
investigations have found.
    Mr. Weber. It makes me wonder if there is not a preferred 
implementer that actually--this is probably not the right 
term--but gets a kickback or is a favorite. They get a pass, 
they get to come on deep into Syria with the least amount of 
hassle. Has that been your findings or no? Are there preferred 
implementers, one does a better job than the other?
    Ms. Calvaresi Barr. You know, hard to say if there are 
preferred, but I can tell you that all of the implementers have 
to show themselves as presently responsible. And when that 
doesn't occur--and there are certain criteria for that--that is 
when program suspensions and other things happen.
    So there are some implementers out there that have very, 
very good, as I said in the beginning, tight controls, good 
internal--know what internal controls are brought into play.
    Mr. Weber. So that they all get treated--I guess I am 
asking, are they bipartisan, is what I am asking? They all get 
treated the same.
    Ms. Calvaresi Barr. They all get treated the same.
    Mr. Weber. Okay. Good. And has there ever been an instance 
where there is a recovery of any aid? Aid gets lost, gets 
taken, and once that happens, it is done.
    Ms. Calvaresi Barr. Our work, one of the impacts that we 
talked about is the fact that we brought in $11.5 million in 
savings as a result of our fraud investigations. And what that 
means is when we uncovered the fact, like in the case of a 
Jordanian NGO that was to provide assistance and had another 
NGO actually do the transport and deliver the items but yet 
charged USAID for it when it was incurred by another NGO, shut 
down that program, shut down that operation. That one in and of 
itself was $10.5 million of the $11.5 million. So----
    Mr. Weber. Were there criminal charges that ensued in that 
instance?
    Ms. Calvaresi Barr. In some cases--these are ongoing 
investigations. There could be criminal implications as a 
result of it, but I can tell you it resulted in a number of 
employee and implementer terminations, suspensions, debarments.
    Mr. Weber. Okay. And then, Dr. Melito, I think you said 
some aid workers were killed, and I didn't quite hear what you 
said. Did you say eight or nine or 89?
    Dr. Melito. According to the U.N., 89.
    Mr. Weber. Eighty-nine. Okay. Okay. And then furthermore, 
Turkey and Jordan were the two areas that the aid came out of, 
but did you say that they really didn't--that the Assad regime 
really doesn't prefer that?
    Dr. Melito. So until these Security Council resolutions 
were passed, it wasn't clear that they could do that, because 
it would be violating the sovereignty of the country. Normally, 
you have to basically get the permission of the country to 
provide assistance.
    Yes, the Assad regime is not supporting the cross-border 
assistance and they are doing it against his wishes, but it is 
an international--it is legal now because of the Security 
Council resolutions.
    Mr. Weber. So is it because Turkey and Jordan signed onto 
the resolution?
    Dr. Melito. The Security Council resolutions have the force 
of law internationally. So they gave permission for that kind 
of assistance to occur.
    Mr. Weber. So would Assad rather they come from Russia, 
from Iran, from Iraq? Where would he rather they come from?
    Dr. Melito. He would rather it was in his areas of control.
    Mr. Weber. His areas of control, so he can parlay out the 
goods----
    Dr. Melito. He can determine when and how, yes.
    Mr. Weber [continuing]. However he wants to. Well, that 
makes sense, I guess, if you are Assad.
    Okay. And then finally, your office hasn't yet conducted 
audits of USAID programs in Syria. Is that right?
    Ms. Calvaresi Barr. We, in fact, have done some audits in 
the recent past. There are about three audits that were done in 
the 2014 timeframe. With that said, they were very specific 
audits looking like a survey of OFDA activities. There were 
audits regarding Office of Transition Initiatives work there, 
Food for Peace work.
    One thing, if I could take a moment, just since I have been 
sworn in into this position as the new IG at USAID, one thing 
that we need to do better--and I am working very quickly to do 
so--is to make sure that our work informs at the policy and the 
strategic level and goes after the highest risk areas. We have 
done tremendous work on Food for Peace programs over the years. 
They are very, very program transactional specific, but it 
doesn't raise oftentimes to the higher level.
    As a result of our investigative work, a number of program 
concerns and questions have been raised now regarding internal 
controls, procurement practices. We are now focusing our audit 
work and our audit plans going forward on those very real 
effects that our Office of Investigations have found.
    So we have some work to do in that area. And I don't want 
to belittle what USAID IG has done before, but we need to link 
it to those policy-level decisions and the bigger picture and 
the highest risk and crosscutting work across the board, and I 
am committed to do that.
    Mr. Weber. Well, that is encouraging to hear. So you will 
have a plan put together and we will see you back next week?
    Ms. Calvaresi Barr. Can I have an extra week on top of 
that?
    Mr. Weber. All right. Well, my time has expired. I am going 
to yield back.
    Ted, any more questions?
    Mr. Deutch. No.
    Mr. Weber. All right. This hearing is concluded. Thank you 
very much.
    [Whereupon, at 3:20 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
